<html>
<title> - [H.A.S.C. No. 113-99] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2015 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








 
                         [H.A.S.C. No. 113-99]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                   FISCAL YEAR 2015 NATIONAL DEFENSE

                     AUTHORIZATION BUDGET REQUESTS

                       FROM U.S. FORCES KOREA AND

                         U.S. STRATEGIC COMMAND

                               __________

                              HEARING HELD

                             APRIL 2, 2014



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                   _______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-862                         WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone
(202) 512-1800, or 866-512-1800 (toll-free). <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d0860202c2421632a3d220d2e383e392528213d632e2220">[email&#160;protected]</a>










                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                Kimberly Shaw, Professional Staff Member
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                        Spencer Johnson, Counsel
                           Aaron Falk, Clerk




















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, April 2, 2014, Fiscal Year 2015 National Defense 
  Authorization Budget Requests from U.S. Forces Korea and U.S. 
  Strategic Command..............................................     1

Appendix:

Wednesday, April 2, 2014.........................................    35
                              ----------                              

                        WEDNESDAY, APRIL 2, 2014
 FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FROM 
              U.S. FORCES KOREA AND U.S. STRATEGIC COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Haney, ADM Cecil D., USN, Commander, U.S. Strategic Command......     5
Scaparrotti, GEN Curtis M., USA, Commander, U.S. Forces Korea....     4

                                APPENDIX

Prepared Statements:

    Haney, ADM Cecil D...........................................    64
    McKeon, Hon. Howard P. ``Buck''..............................    39
    Scaparrotti, GEN Curtis M....................................    43
    Smith, Hon. Adam.............................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    94
    Mr. Cooper...................................................    93
    Mr. Langevin.................................................    93




 FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FROM 
              U.S. FORCES KOREA AND U.S. STRATEGIC COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, April 2, 2014.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Good morning, ladies and gentlemen. The 
committee meets today to receive testimony on the fiscal year 
2015 National Defense Authorization budget request from U.S. 
Forces Korea and U.S. Strategic Command.
    Joining us today are General Curtis Scaparrotti and Admiral 
Cecil Haney.
    The commander of U.S. European Command, General Breedlove, 
was also scheduled to testify today. However, late last week 
Secretary Hagel called him back to Brussels to directly deal 
with the crisis with Russia. We will look to another date later 
this year and try to get the general to appear before the 
committee then.
    The general's callback is a sobering reminder about how our 
military presence in Europe still matters and is still needed. 
Yet as we have shifted focus on other threats across the globe, 
our readiness and force posture in Europe has declined, and we 
have come to find that deterring regional aggression has become 
more difficult.
    The crisis with Russia is also a reminder that we have to 
be prepared for a range of scenarios, whether we think them 
likely or not.
    Some may think a major conflict on the Korean peninsula is 
unlikely and therefore we don't need to size our forces, 
especially our land forces, for such a scenario. However, we 
can look to every major land conflict we have been involved in 
to know that we are usually wrong.
    North Korea maintains the world's fourth largest army. It 
poses a grave threat to our South Korean allies and to 
stability in the region, and increasingly direct threat to the 
United States.
    Yet I remain concerned that the end strength and force 
structure cuts contained in the QDR [Quadrennial Defense 
Review] and the budget request create significant risk for a 
Korean scenario, and also creates greater vulnerabilities in 
other parts of the world.
    In a Korean scenario, General Amos has testified that the 
Marine Corps would be all in, with 20 of its 21 infantry 
battalions committed to the fight. General Odierno testified 
that the Army force structure in the QDR will put in doubt our 
ability to execute even one prolonged, multi-phased major 
contingency operation.
    General Scaparrotti, I hope you can discuss the changing 
threat on the peninsula, the implications it has both for U.S. 
and South Korean forces and capabilities, and the implications 
of the QDR and budget request.
    Admiral Haney, U.S. Strategic Command has a vast portfolio 
to include nuclear forces, missile defense, cyber operations, 
and space.
    As you know, General Dempsey believes our Nation's top 
national security interest is to continue to assure the 
survival of the Nation. I agree with that prioritization and I 
support the funding in this year's base budget request that 
protects the nuclear triad and other nuclear deterrent 
capabilities.
    It is imperative, Admiral, that you continue to take on 
those who would pretend that the United States alone among 
nuclear powers can continue to disarm itself.
    I am increasingly troubled by the aggressive counter-space 
programs of China and Russia, in particular. I trust you will 
not hesitate to tell this committee what you need to accomplish 
that mission.
    At the conclusion of our open session today, we will move 
into 2216 for a closed briefing. I would encourage all Members 
that can, to attend that session.
    Gentlemen, thank you for your leadership, for your service 
during this challenging period. And I look forward to your 
testimony.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 39.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. And welcome to General 
Scaparrotti and Admiral Haney.
    I particularly note, General Scaparrotti, welcome. We 
enjoyed your time out at Fort Lewis, really appreciated your 
leadership there. And I am glad that you are on the job in 
Korea. So it is good to see both of you and I thank you very 
much for your leadership.
    I also want to join the chairman in noting General 
Breedlove's absence, given the crisis in the Ukraine and Europe 
that his presence is required back there. But the issues that 
he is involved in are critical to this committee and ones that 
we will continue to exercise oversight on as we deal with the 
situation between Russia and the Ukraine.
    And in Korea, I also agree with the chairman, that 
continues to be one of the more, you know, dangerous parts of 
the world for us. North Korea is unpredictable. Another sign of 
that yesterday, as they attempted to I guess establish a larger 
border by lobbing missiles across the line in the ocean, or 
artillery.
    And North Korea's unpredictability requires our presence. 
We are and have been for some time the guarantor of South 
Korea's security. And that is going to continue to be the case 
for as far as I can see, given the way North Korea is acting.
    And I share the chairman's concerns as we once again look 
at sequestration here in the near future and go through budget 
cuts, will we have sufficient forces and sufficient presence to 
provide that deterrent capability?
    Because as bad as what North Korea has been doing for the 
last couple of decades, I think we don't want to imagine how 
much worse that would be if they thought we were not there to 
stop them from further aggression against South Korea.
    So I would be curious about your thoughts about how you 
manage that declining budget and continue to maintain a 
credible deterrent to North Korea.
    Also, to learn more about South Korea's growing 
capabilities. Obviously, they are a key partner in that 
deterrence. They have become more capable in recent years. That 
is obviously helpful.
    And I am curious to hear how you feel our partnership with 
South Korea is going and how that matches up to provide that 
deterrent to North Korean aggression.
    So thank you. I look forward to that testimony.
    Admiral Haney, you have an incredibly important portfolio, 
as the chairman mentioned. Space is critical to literally 
everything we do. So curious to hear how we can maintain our 
leadership in that area, make sure that our assets in space 
continue to provide for us what we need throughout our military 
operations.
    And also I am curious about how the triad is maintained 
going forward, or what is your vision for nuclear deterrence as 
we face some very difficult budget challenges in all pieces, 
all assets of the triad?
    Trying to figure out what we are going to do with the 
future long-range strategic bomber, how we maintain our 
submarine fleet given a shrinking budget, and how we maintain 
our ICBMs [intercontinental ballistic missiles] domestically, 
as well. What does the triad look like?
    And then, lastly, I would be interested in hearing an 
update from you on missile defense, on what you think our 
future is, where we would be most wise to spend our money.
    Because I believe missile defense continues to be 
critically important as adversaries like Iran and North Korea 
develop better and better missile technology, and our ability 
to defend against that is going to be critical to our national 
security.
    But I want to make sure that we are spending our money 
wisely as we do that to give us the best chance to have the 
best possible missile defense system to deter those threats.
    I thank you both for being here. I look forward to your 
testimony and the questions and answers from the committee. And 
I yield back. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 41.]
    The Chairman. Thank you.
    General Scaparrotti.

 STATEMENT OF GEN CURTIS M. SCAPARROTTI, USA, COMMANDER, U.S. 
                          FORCES KOREA

    General Scaparrotti. Chairman McKeon, Ranking Member Smith, 
and distinguished members of the committee, I am honored to 
testify today as the commander of the United Nations Command, 
Combined Forces Command, and United States Forces Korea.
    On behalf of the service members, civilians, contractors, 
and their families who serve our great Nation in Korea, thank 
you for your support.
    After 6 months in command, I am confident that combined and 
joint forces of the United States and the Republic of Korea are 
capable and ready to deter, and if necessary, respond to the 
North Korean threats and actions.
    We know how real the North Korean threat is, as over 4 
years ago last week, North Korea fired a torpedo sinking the 
South Korean ship Cheonan, killing 46 sailors.
    That terrible day is a constant reminder that standing at 
freedom's frontier with our Korean ally, we cannot allow 
ourselves to become complacent against an unpredictable 
totalitarian regime.
    The Kim Jong-un regime is dangerous and has capability, 
especially with an increasing asymmetric threat to attack South 
Korea with little or no warning.
    North Korea has the fourth largest military in the world 
with over 70 percent of its ground forces deployed near the DMZ 
[demilitarized zone].
    Its long-range artillery can strike targets in the Seoul 
metropolitan area where over 23 million South Koreans and 
almost 50,000 Americans live.
    In violation of multiple U.N. [United Nations] Security 
Council resolutions, North Korea continues to develop nuclear 
arms and long-range missiles. Additionally, the regime is 
aggressively investing in cyber warfare capabilities.
    North Korea brings risk to the world's fastest growing 
economic region, which is responsible for 25 percent of the 
world's GDP [gross domestic product] and home to our largest 
trading partners.
    Against this real threat, our Nation is committed to the 
security of South Korea and to our national interests.
    Our presence and your support of our troops give meaning to 
that commitment. We are a key component of the Nation's 
rebalance to the Asia-Pacific region.
    Together, the alliance's commitment to each other enables 
stability and prosperity now and into the future.
    In the spirit of this commitment, we are working closely 
with the South Korean military to develop its capabilities and 
combine C4I [command, control, communications, computers, and 
intelligence] systems and alliance counter-missile defense 
strategy and the procurement of precision-guided munitions, 
ballistic missile defense systems, and ISR [intelligence, 
surveillance, and reconnaissance] platforms.
    Readiness is my top overarching priority. To ensure we are 
focused on the right things at the right time, I have developed 
five priorities: first, sustain and strengthen the alliance; 
second, maintain the armistice to deter and defeat aggression 
and to be ready to fight tonight; third, transform the 
alliance; fourth, sustain force and family readiness; and my 
fifth priority, enhance the UNC [United Nations Command], CFC 
[Combined Forces Command], and USFK [U.S. Forces Korea] team.
    An essential part of this is a positive command climate 
that focuses on the covenant between the leader and the led and 
our mission together.
    At the core of mission success is the close relationship we 
share with our South Korean partners. We benefit from an 
important history forged on many battlefields, shared 
sacrifices and democratic principles.
    Over the past 60 years, we have built one of the longest 
standing alliances in modern history. We will continue to 
ensure a strong and effective deterrence posture so that 
Pyongyang never misjudges our role, our commitment, or our 
capability to respond as an alliance.
    I am extremely proud of our joint force and their families 
serving in the Republic of Korea. I sincerely appreciate your 
continued support for them and for our crucial alliance.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Scaparrotti can be found 
in the Appendix on page 43.]
    The Chairman. Thank you.
    Admiral.

STATEMENT OF ADM CECIL D. HANEY, USN, COMMANDER, U.S. STRATEGIC 
                            COMMAND

    Admiral Haney. Good morning. Chairman McKeon, Ranking 
Member Smith, and distinguished members of this committee, with 
your permission, I would like to have my full statement made as 
part of the record.
    The Chairman. No objection, so ordered.
    Admiral Haney. And I am honored to join you here today as 
my first appearance as the commander of U.S. Strategic Command.
    I am also pleased to be here with General Mike Scaparrotti, 
commander of U.S. Forces Korea. I would like to express my 
appreciation for his vision and leadership.
    As you know, U.S. Strategic Command executes a diverse set 
of global responsibilities that directly contribute to national 
security. And I can say with full confidence that today, U.S. 
Strategic Command remains capable and ready to meet all 
assigned missions.
    We are blessed to have a talented, dedicated, and 
professional military and civilian workforce to address the 
significant national security challenges facing the United 
States of America.
    I thank the Congress and this committee for your support 
and I look forward to working with you throughout my tour of 
duty.
    We appreciate the passage of the 2-year Bipartisan Budget 
Act of 2013 and the 2014 Consolidated Appropriations Act.
    This legislation decreases near-term budgetary uncertainty, 
but I remain concerned that sequestration will continue to 
stress the human element of our capabilities as well as 
impacting our capability to meet the threats and challenges of 
the 21st century.
    The current global security environment is getting more 
complex, dynamic, and uncertain than any time in recent history 
as ongoing events in Ukraine and North Korea, as mentioned, are 
making abundantly clear--advances in state and non-state 
military capabilities across the air, sea, land, and space 
domains, as well as in cyberspace.
    The space domain is becoming ever more congested, 
contested, and competitive. Worldwide cyber threats are growing 
in scale and sophistication.
    Nuclear powers are invested in long-term and wide-ranging 
military modernization programs. Proliferation of weapons and 
nuclear technologies continues.
    Weapons of mass destruction capabilities deliver--
technologies are maturing and becoming more readily available. 
No region of the world is immune from potential chemical, 
biological, radiological, nuclear risks.
    Terrorist threats remain a source of significant ambiguity 
and the threat of homegrown violent extremists remains a 
concern.
    Against this dynamic and uncertain backdrop, U.S. Strategic 
Command's mission is to partner with other combatant commands 
and to deter and detect strategic attack against the United 
States of America and our allies, and to defeat those attacks 
if deterrence fails.
    Our Unified Command Plan assigned missions are strategic in 
nature, global in scope, and intertwined with the capabilities 
of the joint force, the interagency, and the whole of 
government.
    These attributes require linkages and synergies at all 
levels to bring integrated capabilities to bear through 
synchronized planning, simultaneous execution of missions and 
coherent strategic communications. And we must secure these 
activities by implementing a defensible joint information 
environment.
    U.S. Strategic Command manages this diverse and challenging 
activity by actively executing a tailored deterrence and 
assurance campaign plan and by executing my five command 
priorities: number one, provide a safe, secure, and effective 
nuclear deterrent force; two, partner with other combatant 
commands to win today; three, address our challenges in space; 
four, build cyberspace capability and capacity; and five, 
prepare for uncertainty.
    In keeping with the 2010 Nuclear Posture Review, my first 
number one priority is to ensure a safe, secure, effective 
nuclear deterrent force consisting of a synthesis of dedicated 
sensors, assured command and control, the triad of delivery 
systems, nuclear weapons and their associated infrastructure, 
and trained ready people.
    In light of recent personnel integrity concerns associated 
with the intercontinental ballistic missile force, I fully 
support Secretary Hagel's initiatives to assemble key 
Department of Defense stakeholders to fully assess and 
understand the implications of recent events and seek long-term 
systematic solutions that will maintain the trust and 
confidence in our nuclear enterprise.
    This has my utmost attention--but let me repeat: America's 
nuclear deterrent force remains safe, secure, and effective.
    In addition to our critical deterrence and assurance work, 
we are engaged on a daily basis in a broader range of 
activities across our mission areas of space, cyberspace, 
intelligence surveillance and reconnaissance, combating weapons 
of mass destruction, missile defense, joint electronic warfare, 
global strike, and analysis and targeting.
    While these diverse activities are being synchronized and 
integrated by an outstanding team, none of this work I have 
described can be accomplished without trained and ready and 
motivated people. They remain our most precious resource and 
deserve our unwavering support.
    My travels to a number of U.S. Strategic Command and 
partner locations since I took command last November confirm my 
belief that we have an outstanding team in place across all of 
our mission areas.
    I have the utmost respect for their professionalism, their 
dedication to duty, and sustained operational excellence.
    In today's uncertain times, I am proud to lead such a 
focused and innovative team. We are building our force--our 
future on a strong and successful path.
    Your continued support, together with the hard work of 
outstanding men and women of U.S. Strategic Command, will 
ensure we remain ready, agile, and effective in deterring 
strategic attack, assuring our allies, and defeating current 
and future threats.
    Today, I am joined by my sister behind me, Dr. Yvonne 
Coates, who has worked as a DC [District of Columbia] public 
school teacher for many years.
    While I often acknowledge the support of military families, 
today I salute the efforts of my sister, who represents our 
siblings, who many times are often left to handle family 
matters while we in the military service serve our Nation far 
away from home. We couldn't do it without their support, too.
    I thank you all for your time, and I look forward to your 
questions.
    [The prepared statement of Admiral Haney can be found in 
the Appendix on page 64.]
    The Chairman. Thank you very much.
    General Scaparrotti, while North Korea remains one of the 
world's largest conventional forces, your testimony also 
discusses its increased emphasis on asymmetric capabilities. 
Can you discuss these capabilities in more detail and the 
implications they have for U.S. forces and capabilities? And as 
you look at the Korean Peninsula scenarios, what are your 
concerns with the defense strategy in the fiscal year 2015 
budget request to include Army force structure cuts to the 
420,000 active and changes in the ISR programs?
    General Scaparrotti. Chairman, thank you very much.
    First of all, as stated, North Korea presents a very large 
force--a million--across all of its services. A good portion of 
that is conventional, as you know, but in recent years the 
North Koreans have invested in their asymmetric capabilities, 
as well. And those are predominantly in their missile 
capabilities, which have been demonstrated here since the 21st 
of February, most recently, a medium-range ballistic missile--
two--that were fired across the peninsula into the East Sea, as 
well as development--at least they have displayed intermediate-
range ballistic missile and an intercontinental ballistic 
missile, as well. Although not tested, they have displayed 
them, and they claim to have this capability.
    They are developing, as you know, a nuclear capability, as 
well. And then within their navy, they have a--although not a 
modern submarine force, a very capable one that presents 
challenges in terms of their ability to use torpedoes, mining, 
and also for the insertion of soft forces into South Korea.
    And then finally, coupled with that is a very large soft 
special operations force who train for infiltration techniques 
by air, land, and sea, specifically, against targets that we 
have seen mockups in South Korea over the last winter training 
period.
    And then finally, they have continued to develop a long-
range artillery capability. Significant number of tubes of 
long-range artillery that can reach Seoul from their positions 
on the other side of the DMZ. And they are in hardened 
positions, so it makes it very difficult for us to detect, and 
then to counter.
    The impact of that is, is that they present a large 
conventional force with some credible asymmetric capabilities, 
both of which they may choose to use for limited objectives, 
for instance, in the asymmetric capabilities. And they present 
us with a problem where it is very difficult for us to have 
indicators and warnings of their use. So, it reduces our time 
to detect--our ability to detect and then our time to respond. 
And that has created--that has caused us to change our strategy 
in terms of defense and our posture on the peninsula across the 
alliance, both South Koreans and the United States.
    Finally, to your question about the present budget under 
consideration--Korea has--the Korean theater has enjoyed being 
the highest of priorities, right behind Afghanistan. So, as a 
result, Mr. Chairman, I have been resourced to defend the 
peninsula and our interests. And my forces are ready to do 
that. My concern, however, is in the follow-on forces, which, 
if there is a conflict or an escalation of crisis on the 
peninsula, I rely on to be there quickly and to be ready.
    I am concerned that the follow-on forces, given the fiscal 
constraints and their impact on our forces writ large--that 
they are at a reduced readiness capability today. And also, the 
capability of moving them on the timeline that I might need 
them is in jeopardy.
    And so, those are my concerns with the present fiscal 
constraints. If sequestration were to continue, I think that 
would become a greater concern.
    With respect to the forces, my concern would be that we 
maintain enough depth in all of our services. That we can 
respond to the many global challenges that we have and 
commitments that we have made, as well as be able to respond to 
a crisis, for instance, on the Korean theater, and have enough 
depth to deal with that, particularly if it is one that is not 
of short duration.
    In the Army's case, I think that if we were to reduce our 
force size based on the sequestration, we would probably be 
challenged in terms of maintaining a long duration conflict, or 
one that included stability operations for some time 
thereafter.
    The Chairman. Thank you.
    Admiral Haney, can you confirm that it is your position, as 
it is the position of the chairman and the vice chairman of the 
Joint Chiefs that further reductions in U.S. nuclear forces be 
negotiated, bilateral, and verifiable? And that you would 
oppose unilateral U.S. nuclear force reductions?
    Admiral Haney. Chairman, I agree with the statement you 
have made there. Any additional reductions in nuclear weapons 
require it to be non-unilateral. And it has to be in a 
verifiable manner so that we can get the benefits, such as 
those we have gotten from the New START [Strategic Arms 
Reduction] Treaty, where we have had access and the ability to 
be able to verify what Russia has in a very methodical way and 
a very open and transparent way.
    The Chairman. Thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Admiral Haney, when you look at the--I guess it is sort of 
like three challenges here. New START--obviously, having to 
implement that. And then, you know, updating and maintaining 
the existing triad. You know, getting ready to build the new, 
you know, Ohio class, you know, submarines. Dealing with, you 
know, the aging ICBM fleet, and also the long-range strategic 
bomber.
    So, as you balance New START, the cost of modernization--so 
it is also modernization costs for specific nuclear weapons. 
And then the challenge of the budget. What is sort of your 
vision for how we maintain, you know, our nuclear deterrent? 
Maintaining the full triad, meeting New START, meeting those 
modernization requirements in a tight budget environment? I 
realize that is not exactly a short answer, but just quickly, 
what is your vision for how to meet all those challenges and 
make sure we still have the nuclear deterrent that our national 
security plan requires?
    Admiral Haney. Congressman Smith, I thank you for that 
question. First and foremost, I think it is important that we 
as a country realize just how important and foundational our 
strategic deterrent is today for us and well into the future.
    As you have mentioned, there is a need for modernization in 
a variety of areas. When you look at the credible strategic 
deterrent we have today, that includes everything from the 
indications in warning to the command and control and 
communication structure that goes all the way from the 
President down to the units, and to what frequently we talk 
about as the triad involving the intercontinental ballistic 
missiles, the submarines, and the bombers, each providing its 
unique aspect of deterrent.
    And as stated in the Nuclear Posture Review 2010, which is 
still enduring, these are capabilities that our country must 
have for the foreseeable future, even as we work to meet those 
New START Treaty limits that are provided. And we are on a good 
course regarding those. As you look at what numbers of our 
stockpile was back in the 1970s to where we are today and we 
are going, that is a good thing----
    Mr. Smith. Yes----
    Admiral Haney [continuing]. For the United States of 
America.
    Mr. Smith. Admiral, if I may, I think the greater challenge 
is the budget piece. I mean, what if sequestration kicks in and 
we don't have enough money to replace the Ohio class? You know, 
or those budget constraints kick in and we can't modernize the 
missiles we need to keep our ICBM fleet up to snuff, or can't 
build a new long-range bomber?
    How deep are you into contemplating what the choices are in 
terms of what the smartest cuts to make and still maintain a 
credible deterrent would be?
    Admiral Haney. Well, Congressman Smith, I would say, number 
one, if we continue on a journey of sequestration and have to 
make those kind of choices, that will be detrimental to our 
national defense structure. And I would make that my point, 
first and foremost.
    Mr. Smith. Right. That is subtly and artfully put. I think 
it would be devastating. I mean, it would--I think it would 
require us to fundamentally reexamine our nuclear deterrent 
strategy.
    And I know many Members are very adamant that we need that 
nuclear deterrent strategy, we need that triad. Sequestration 
makes that impossible. It would require choices--it would 
require us to go in a different direction, and there may be a 
way out of it, a logical way.
    But I just want to make sure that everyone understands that 
sequestration basically blows up that strategy, that nuclear 
deterrence strategy based on the triad, given all of the things 
that have to happen over the course of the next couple of 
decades to fund it.
    Am I wrong about that or is that a fair assessment?
    Admiral Haney. Congressman Smith, we will have to look at 
all things across our national security apparatus in that view. 
And there will be, as we have already made and will continue to 
have to make, very hard choices going forward in that regard.
    When you look, though, historically here, the force we have 
today has been really on what I call the decay heap from the 
investments made in particular around the 1980 timeframe. And 
consequently, that capability has been enduring and has lasted 
quite some time, even to this day, where its portion of defense 
funding is somewhere in order of 2.5 percent or more.
    And even the business of modernizing and improving that, 
which again will build things that will last a long time, 
requiring some modernization, will still perhaps be in the 
doubling of that amount or more over time.
    It is an investment, from my opinion, that we as a country 
can ill afford not to make, given the modernization that we see 
going on in other countries in the strategic environment today.
    Mr. Smith. I am sure. Thank you. I do have questions for 
General Scaparrotti, but I will save those for the classified 
session and let other Members get in. I yield back.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Mr. Chairman, thank you and the ranking member 
for holding this hearing.
    General, Admiral, thank you for your service to our 
country. And Admiral, we are certainly appreciative of the 
support your sister and your entire family has given to you as 
you have served with the general so ably for this country.
    General, we have heard words on North Korea like 
unpredictable, dangerous, unstable, one of the world's largest 
conventional forces, willingness to use their military force.
    Last month, General Dempsey testified to this committee 
that he considers anti-personnel landmines to be an important 
tool in the arsenal of the Armed Forces of the United States. 
The chairman also made this committee aware that an assessment 
has been conducted by the Pentagon on the issue of landmines 
and the impact of signing the Ottawa Treaty.
    Have you been able to review that assessment yet?
    General Scaparrotti. Yes, sir, I have.
    Mr. Forbes. And can you tell us what that assessment is? Or 
is that something you would prefer to do when we go into the 
classified session?
    General Scaparrotti. I would prefer to do it in the 
classified session.
    Mr. Forbes. Then in this session, can you tell us not based 
on that assessment but in your best professional military 
judgment, what would your advice be to the chairman and this 
committee on the utility of anti-personnel landmines to your 
mission on the Korean Peninsula?
    And particularly, let me ask you this--what will be the 
impact to your mission on the Korean Peninsula if such a treaty 
were signed? And how would the United States and the Republic 
of Korea provide an effective deterrent to North Korea without 
the use of landmines?
    General Scaparrotti. Sir, I have provided my best military 
advice on this issue, as well. And it is my assessment that 
landmines are a critical element in the defense of the Republic 
of Korea and our interest there. And they are a critical 
element of our contingency plans, as well.
    For any further response, I would ask that we refer that to 
the closed session.
    Mr. Forbes. And with that, I will look forward to that 
response in that closed session.
    And Mr. Chairman, I will yield back the balance of my time.
    The Chairman. Thank you.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    Thank you to both of you gentlemen. Having personally had 
opportunities to meet with you in former commands that each of 
you had, I greatly appreciate the work and have witnessed it 
personally. And I thank you for that dedication and commitment.
    General Scaparrotti, particularly your time at Fort Bragg; 
and Admiral Haney, your time at the USS North Carolina 
commissioning that we had down at our congressional district, 
and also the work you did in PACOM [Pacific Command] and over 
in Pearl Harbor.
    With regard to your testimony, Admiral Haney, on page 10 
you say that ``recapitalizing our sea-based strategic deterrent 
force is my top modernization priority and I am committed to 
working closely with the Navy on this program.''
    And then you speak about the Trident ballistic missiles and 
the concerns that you have.
    And you talk about, with respect to the submarine that 
delivers these missiles, and I quote: ``the Ohio-class 
submarine has already been extended from 30 to 42 years of 
service--no further extension is possible and these submarines 
will start leaving service in 2027. As such, the Ohio 
Replacement Program must stay on schedule. No further delay is 
possible,'' closed quote.
    And then you refer to our commitment to working with the 
United Kingdom on this. Would you discuss the risk and the cost 
savings associated with any further slippage in the schedule 
for the Ohio-class replacement submarine?
    In other words, will the Navy be able to fulfill STRATCOM's 
[Strategic Command's] continuous at-sea deterrence requirements 
in future years on the current schedule? And if these 
replacement submarines are further delayed?
    Admiral Haney. Congressman McIntyre, thank you for your 
question.
    As you have described here, I am fully committed to the 
Ohio replacement program due to what it provides our Nation as 
part of the triad. The survivable nature of our sea leg of this 
strategic deterrent continues to provide and will in the future 
provide credible both deterrence and assurance for our Nation 
and our allies.
    We have extended the Ohio class, the current class, out to 
this 42 years, which is further than we have had any other 
submarine class operated before. Only one submarine, USS 
Kamehameha, was out to 36 years.
    So through proper engineering assessments and what have 
you, by refueling that class, we were able to get it out to 42 
years. But in doing so, that really puts it at significant risk 
of going beyond that and maintaining the presence of strategic 
deterrence, its survivable leg at sea, for the future.
    As we look at the current plan which has been moved to the 
right, we won't have that new Ohio replacement submarine on 
patrol until 2031, even with the current program we have right 
now.
    And as such, that puts our strategic deterrent at risk if 
we don't continue to move forward and as we work through our 
sequestration journey, that that has to remain a high priority.
    Mr. McIntyre. Thank you, Admiral.
    General Scaparrotti, in the time I have left, I know the 
Army announced a rotational deployment of a combined arms 
battalion to Korea. We here get advice and hear consultations 
and testimony from other groups. And I want your reaction to 
this.
    The Center for Strategic International Studies has 
recommended that the Department consider replacing U.S. ground 
combat units with rotations of trained and ready Army brigades 
as one approach to enhancing readiness.
    Can you tell us what the benefits and risks of such a 
rotational model would be?
    General Scaparrotti. Yes, sir. Thank you.
    As you know, we are rotating today on the ground force side 
of this, an aviation, reconnaissance aviation battalion, and as 
you mentioned, a combined arms battalion.
    The advantages of that are that those are both additional 
forces in Korea. So we were able to add forces with that 
rotation to meet needs for posture on the peninsula. So it 
allowed us to add a force.
    And when we do that, we can provide a force that is 
completely trained. It is ready. And it will be ready and in 
place for the duration, a 9-month rotation in this case, to 
provide the deterrence and, if necessary, the combat forces 
that we need in a crisis.
    These forces are trained for that. They come into the 
theater ready to go. And we don't have the turbulence that we 
see in the remainder of our forces that are assigned on the 
peninsula.
    As you know, we have most of our forces, particularly the 
soldiers, there on 1-year tours unaccompanied. And then, if 
they have families, which is about 20 percent, it would be a 2-
year or 3-year tour.
    So we have an increased rotation of personnel, which 
challenges us in terms of readiness.
    So overall, I would say that I favor rotational forces, but 
we have to have a balance of those between the number that we 
rotate and then another grouping that is stable and on the 
peninsula to provide that persistence in a long-term 
relationship that we need within the alliance, as well. So a 
combination works best.
    Mr. McIntyre. All right. Thank you, Chairman.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And General, Admiral, 
thank you very much for your service. And I am particularly 
grateful to be with you in that I had the opportunity to be on 
a very rare delegation to North Korea. And so I have seen North 
Korea. I have just completed my third visit to South Korea.
    There is no greater contrast on Earth as to the difference 
between the failure of socialism in North Korea and the dynamic 
success of South Korea. And I give so much of that credit to 
American military to make this possible. The security there, 
the opportunity for the people of South Korea. And I just saw 
it firsthand.
    Additionally, I had the opportunity--it was my third visit 
to the DMZ. And I thought, General, Admiral, when I was going 
there that, gosh, third time. This is going to be boring. No. 
Any time you go it is, again, a chilling reminder with victory 
in the Cold War, there still is a remnant of the Cold War. And 
our military personnel are making such a difference in 
preserving by peace through strength in that region. So thank 
you for your service.
    I am particularly concerned that North Korea is changing 
its asymmetric capabilities with deployments and development of 
new ballistic missile systems, nuclear tests, cyber threats, 
and increased emphasis on specialized light infantry special 
operation forces.
    With that in mind, are the U.S. forces postured and capable 
of defending our allies given North Korea's ability to conduct 
limited attacks, as indicated, Admiral, with limited or even no 
warning?
    General Scaparrotti. Would you like me to take it?
    Mr. Wilson. Both. Yes. Thank you.
    General Scaparrotti. Sure. As I stated, they are investing 
in asymmetric means. We have made adjustments to our posture as 
an alliance, both ROK [Republic of Korea] and U.S. as a result 
of their changes. We have made changes in our armistice plans 
day to day, as well as our contingency plans for either 
provocation or crisis.
    So we have continued to adapt both the forces we have and 
the plans that we rely upon as an alliance to address that. And 
we are able to deter today and we can respond, as you saw this 
past week. The ROK forces responded to the artillery fires in 
the northwest region. Thank you.
    Admiral Haney. Congressman Wilson, likewise, our forces 
remain postured and ready. And the planning that we do with 
USPACOM [United States Pacific Command] is integrated in order 
to look at the threats from North Korea.
    But as you have stated, their provocation cycle and in 
particular their ability here to launch things in space, as 
well as parading around their various ballistic missile type 
capability and their nuclear test is something that we must 
continue to deter and provide assurance to as we go forward.
    Mr. Wilson. And I am going to thank both of you because I 
believe you are both very convincing. And this has to be 
reassuring, as the general indicated, to 23 million people who 
live virtually within artillery range in Seoul. And again, 
thank you.
    Additionally, with the rebalancing of the Asian Pacific, 
how is that affecting your ability to provide support in the 
region? Can you explain the adjustments that our forces are 
making that is different than currently postured? General.
    General Scaparrotti. Sure. I can address that. First, it 
has been very positive on the Korean Peninsula and the Pacific 
at large, as you might imagine. But for me, the additional 
rotational forces that we just discussed are a part of the 
rebalance.
    In terms of the equipment that we have, the equipment 
within Korea, the services are--the Army has already completed 
the move to give us the most modern equipment in terms of 
Apaches, Bradleys, tanks that are available. And that is true 
with the other services. They are working along the same lines.
    In terms of the rebalance, I have been resourced so that I 
can maintain my readiness. My pilots, for instance in the Air 
Force, where our funds were increased this year to ensure that 
they could keep their skills honed to be able to respond and 
fight tonight. So I am pleased with that aspect of it.
    If I could, one thing from your last question is that is my 
first need given the threat that we face is increased ISR. And 
I wanted to make that point because you noted the limited 
warning time that we have. And it is an increase in ISR that 
will allow me to get indicators and warnings and posture the 
force properly and be proactive as opposed to reactive.
    Mr. Wilson. Well that is incredible, and I thank you again 
for your service.
    The Chairman. Thank you. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And want to thank 
both the witnesses for being here today. General, your opening 
reference to the sinking of the Cheonan, you know, again, I 
think is an important reminder about the fact that, you know, 
the conflict over there, which again a lot of the press is 
focused on sort of, you know, rockets being fired and missiles 
being fired, but it also extends under the sea.
    And that actually was, again, the most--had the biggest 
casualty impact and was really the most outrageous breach of 
the rules over there. So thank you for, you know, sort of 
highlighting what happened in that incident.
    And Admiral, it is good to see you again. Your service at 
Squadron Two up in Connecticut, again, was, again, an 
outstanding addition to your amazing resume. And it is good to 
see you in your new position.
    At every hearing since the budget came out, whether it was 
Secretary Hagel, Secretary Mabus, Mr. Stackley, recapitalizing 
the ballistic submarine force has been sort of a top issue, 
number one in terms of the priorities of the country but also 
obviously the challenge it presents to shipbuilding.
    I wanted to focus for a minute, in terms of CBO 
[Congressional Budget Office] sort of laid out some different 
scenarios in a recent report that talked about a fleet size of 
ballistic subs of 8 versus the planned 12. And again, in a very 
sort of strategic neutral fashion. It just sort of did it based 
on, you know, the impact in terms of budget numbers.
    But I was wondering if you would comment in terms of what 
the impact of having a smaller fleet would be if 8 were the 
size of the fleet as opposed to the--again, the reduced size of 
12 that is now presently being planned.
    Admiral Haney. Congressman Courtney, a very important 
question, in that through a variety of different jobs, 
including this one, as we have rigorously looked at the 
requirement, eight will not meet the requirement for the 
foreseeable future.
    When I first entered this business, we had ``41 for 
Freedom'' in terms of the number of SSBNs [ballistic missile 
submarines] that were available. Today we have worked hard to 
get to what--just what the country needs. And as we look at 
this future, the 12 Ohio replacement platforms is the 
requirement now and into the future.
    Mr. Courtney. And in terms of what eight would mean is 
that--you know, sometimes people might think eight would always 
be out there deployed at all times, but the fact is is the 
reality doesn't allow for that. You need to have boats in for 
repair availabilities that take them out of the circulation. 
And I mean, isn't that sort of really the rub of a smaller 
fleet size?
    Admiral Haney. Congressman Courtney, we have worked over 
the years to refine our operational concept such that we could 
even get down to the 14 ballistic missile submarines we have 
today. Those submarines have an operational tempo of 70 percent 
and we keep them with the two-crew concept out at sea more so 
than our other platforms.
    As a result, you couldn't do the same thing with eight 
today. That would be a significant reduction from the 
requirement that is necessary in order to have that survivable 
sea leg capability providing our deterrence day in and day out.
    Mr. Courtney. And last year during, again, some of the 
budget deliberations, again, there was an attempt again to sort 
of reduce the design budget and, again, push the schedule off 
to the right, which there was a fairly strong bipartisan vote 
rejecting that proposal.
    Again, I just wondered if you could sort of talk a little 
bit about the impact of another delay if that were ever to be 
approved by Congress.
    Admiral Haney. Well, first I would like to thank the 
Congress for keeping us on course here. Because as I mentioned 
both in written testimony and verbally here, it is just so 
important that we not delay any further because we will take a 
detriment in having that strategic deterrent, that survivable 
leg capability that has been providing our deterrence for years 
and will continue to be a foundation of our national security 
for years to come.
    Mr. Courtney. Great. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Admiral Haney, I want to thank you for your very clear 
description of the need for us to take very seriously the 
investment in our strategic forces. Your statement of the 
investments that were largely being carried on occurred in the 
1980s--the need to make certain that we have a credible and 
quality valid nuclear deterrent is incredibly important.
    Putin has allowed us in his most recent actions to 
understand that we have been pursuing a false narrative with 
respect to Russia, both with respect to our conventional forces 
in Europe and our strategic forces. We now see that there have 
been some actions that Russia has been taking, specifically 
under the leadership of Putin, that perhaps we have ignored or 
that we have diminished in importance.
    As we review those issues again, certainly our nuclear 
deterrent comes to mind as an issue that needs to be reviewed 
in light of Russia's actions and Russia's doctrine. So, my 
question to you is twofold with respect to Russia's actions and 
doctrine with respect to its nuclear deterrent.
    Recently in the Global Security News wire, there was a 
statement that this weekend there was a massive nuclear force 
exercise in Russia that was under way, that, obviously having a 
great concern, if that is accurate, that that occur in context 
of the significant conventional mobilization that is happening 
of Russia on the border of Ukraine.
    So, I wonder if you might speak for a moment about Russia's 
nuclear doctrine as we try to look to what narrative we should 
see Russia in. Could you tell us about this exercise and about 
Russia's nuclear doctrine in general? And also, how does Russia 
integrate the use of its nuclear weapons into its conventional 
war plans, as we look to, obviously, a Russia that is 
mobilizing for war, specifically as we looked at Crimea and the 
prospects of Ukraine?
    Admiral Haney. Congressman Turner, first and foremost, I 
would like to make sure I under--we are clear that I know of no 
massive nuclear exercise that is ongoing right now. I will say 
in 2013----
    Mr. Turner. But let me just read what this says. It says, 
``According to the Russian Daily, on Thursday, Russia's 
strategic missile forces began a massive 3-day exercise 
involving 10,000 soldiers and 1,000 pieces of equipment for 
more than 30 units. The major purpose of this drill, according 
to the report, which cites multiple senior Russian military 
officers, is to ensure Russia's strategic missile forces have 
sufficient readiness to conduct offensive operations involving 
the massive and simultaneous use of nuclear missiles.''
    Now, even if that--if you are not familiar with it, and 
even if it is not occurring, it certainly gives us the light of 
their concept--which is where my question goes--of the use of 
strategic weapons in context of their offensive or conventional 
movements.
    Admiral Haney. Congressman Turner, Russia has maintained 
and continues to modernize their strategic deterrent 
capability, and also, periodically, exercises both their 
command and control capability through their communications, as 
well as as we saw in 2013, quite frankly, Russia put a YouTube 
video out on one of their strategic operational nuclear force 
exercises, where they demonstrated back in September, October 
timeframe every aspect of their capability. It did not make as 
much news as you described here today. But on a day-to-day 
basis, they exercise and have a readiness posture of their 
capability, which we monitor very closely.
    Mr. Turner. Could you talk a moment about the issue in 
their doctrine about de-escalation? Because we have heard in 
front of this committee testimony about their use of nuclear 
weapons to de-escalate a conflict, which we would consider to 
be an escalation of it.
    Admiral Haney. Well, Congressman Turner, I think it would 
be much more appropriate to have that kind of conversation in a 
closed hearing.
    Mr. Turner. Well, my point being, if--whatever you can say 
on the record, this certainly requires a public discussion of 
what our deterrent may be looking to. What can you tell us 
about Russia's view versus our view?
    Admiral Haney. Well, Russia has, as I mentioned, been on a 
continuous modernization program of their capability. Not just 
fixed ICBM--intercontinental ballistic missile sites. For 
example, they have mobile ICBM missiles. They have been 
developing a new class of SSBN, as well. And they have 
exercised their strategic bomber capability frequently over the 
years, and continue to do so.
    I would be remiss if I was to go deeper into their strategy 
and what we think in that regards. But, as noted, through our 
various arms control deliberations, and even in his public 
statements that have been made by President Putin, he has 
always stated the importance of his strategic capabilities for 
the country of Russia.
    The Chairman. Thank you.
    Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman. This--all the way 
stage right. This question is in follow-up really to Mr. 
Wilson's questioning and Mr. Turner's questioning.
    We have seen several incidents of the North Koreans 
launching short-range and medium-range ballistic missile 
testing. We have seen several provocations of artillery firing 
on the part of the North Koreans, with some response with South 
Koreans.
    In light of what we have seen in Ukraine, and especially 
Crimea, do you detect any further provocations on the part of 
North Korea? I realize that North Korea has had a history of 
provocation--de-escalation, provocation, de-escalation. But do 
you see any linkages here between the North Koreans' recent 
activities and with the Russian actions in Crimea?
    General Scaparrotti. Congressman, no, I don't. I have got 
to believe that Kim Jong-un and his regime obviously watches 
what goes on in--globally and our responses to it. But in terms 
of this--the recent missile launches, the live fire event the 
other night, this is a common strategy with North Korea, to 
come out of a period of calm and to use these types of actions 
to message to both the United States, the international 
community, and South Korea.
    And also to demonstrate capability. And I personally 
believe that he is in a period now, particularly coming out of 
winter training cycle, and having had the alliance demonstrate 
our capabilities and our training period here over the last 2 
months, that that is what this is about. It is the normal 
pattern of messaging his displeasure with our training. 
Messaging their capabilities. And just recently, their rhetoric 
has begun to pick up, as well, particularly in the last 2 or 3 
days.
    So, I think it is something that I expected, particularly 
at about the March-April timeframe.
    Mr. Enyart. Do you anticipate that this is sending the 
message also to China?
    General Scaparrotti. I think it could be. You know, China 
is--we would hope, have some influence. They certainly have 
every opportunity to influence Kim Jong-un and his regime. We 
would hope they would continue to put some pressure on him to 
abide by international norms and the United Nation's Security 
Council Resolutions.
    Mr. Enyart. And one final question. What impact has the 
execution of his uncle had on the military command and control 
structure in North Korea?
    General Scaparrotti. Yes, sir.
    That is a difficult question to answer in the sense that, 
you know, the regime is closed. They are very good at control 
of information, et cetera. And it is difficult for us to have a 
real clear picture of impact and intent.
    However, I think from what we do know, the fact that Kim 
Jong-un executed his uncle--that it was his uncle, that it was 
an elder, and in the fashion that he did it--the public nature 
of it--and that he announced the reasons for it in the way he 
did, obviously, had an impact on the regime, as well. Because 
it really changed the rules, if I can put it that way. And I 
believe they probably are unsure of what the rules are today.
    So we believe it probably did have an impact on the regime. 
It probably was unsettling.
    From Kim Jong-un's point of view, though, I would say that 
he has successfully controlled that situation, has gained power 
as a result of that.
    Mr. Enyart. Thank you, General.
    I yield back.
    The Chairman. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    And I thank both of you for being here and for your service 
to our country.
    Admiral Haney, I was listening to your interaction with 
Ranking Member Smith and talking about sequestration and its 
effects on us. And I know from our conversations and your 
reference in his questioning that modernization is a top 
priority for you.
    And your belief that sequestration is going to have a 
seriously detrimental effect on our ability to modernize. But 
when you were answering Congressman Turner, you made this 
quote, this statement: ``Russia has been under continuous 
modernization process.''
    Can you tell us more about that continuous modernization 
process?
    Admiral Haney. Congressman Rogers, as Russia has 
articulated their value in having strategic capability, and as 
such, each area they have invested in both in terms of nuclear 
strategic capability, as well as space capability and 
cyberspace capability, in terms of things.
    And as a result, we have seen them demonstrate their 
capability through a variety of exercises and operations. They 
maintain their readiness of that capability on a continuous 
fashion. And it is a capability I don't see them backing away 
from.
    Mr. Rogers. Over how long a period of time would you say 
they have been under this continuous process?
    Admiral Haney. I would say, as a minimum, as the Russian 
capability drew down, the one area that they maintained was 
their strategic capability.
    Then their modernization has been occurring over the last 
decade or so.
    Mr. Rogers. And how does it compare to our modernization 
effort over that same 10-year period of time? And what you see 
going forward?
    Are they as vigorous or more vigorous or less vigorous than 
we are at modernization?
    Admiral Haney. I would say, at this point, over the last 
decade, they have put in place new programs, where in our case 
we have sustained existing programs. So I want to be careful in 
terms of comparing apples to oranges.
    It is just as we look to our future, you can only sustain 
what we have for so long. For example----
    Mr. Rogers. I guess what I am getting at is, would you say 
our modernization effort is inadequate?
    Admiral Haney. I would say we have plans for our 
modernization that we must continue to work through. And if--as 
long as we stay on course on those plans, we will be fine.
    Mr. Rogers. And will sequestration allow you to stay on 
course on those plans?
    Admiral Haney. Sequestration, as written today, puts 
uncertainty in those plans, in terms of what will be funded 
into the future.
    Mr. Rogers. Thank you.
    Now I want to turn to the B-61 LEP [Life Extension 
Program]. Do you think our NATO [North Atlantic Treaty 
Organization] allies should help share the cost of our B-61 
Life Extension Program?
    Admiral Haney. I believe the B-61 Life Extension Program is 
a United States of America program and that is where it should 
be in terms of things.
    Mr. Rogers. But do they currently shoulder part of those 
expenses by sharing the basing of them?
    Admiral Haney. The expenses that our NATO partners expend 
on is associated with the storage and security of our storage 
areas.
    Mr. Rogers. So in fact they are sharing a part of the cost 
at present.
    Admiral Haney. They are sharing that part of the cost.
    Mr. Rogers. Which is a part of the cost. If they didn't do 
it, we would have to do it, wouldn't we?
    Admiral Haney. That is correct.
    Mr. Rogers. Do you think that having them share part of 
these costs is in violation of the Nuclear Non-Proliferation 
Treaty?
    Admiral Haney. The way they are paying for the security and 
storage is not in violation of the Nuclear Non-Proliferation 
Treaty.
    Mr. Rogers. Great.
    And I want to make sure we are clear--you restate your 
position on the importance of the B-61 LEP.
    Admiral Haney. It is very important as we go forward here 
with what we have been calling our ``3+2'' strategy for weapons 
modernization that we life-extend the B-61 program. And that 
program has started and it provides the capability for our air 
leg to continue to be a viable part of our credible strategic--
--
    Mr. Rogers. There are those in the Congress who want to--
who are calling for termination. Do you think that would be a 
responsible position to take?
    Admiral Haney. No. I would urge the Congress to support the 
B-61 Life Extension Program.
    Mr. Rogers. Thank you, sir.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    General Scaparrotti, Admiral Haney, thank you very much for 
your testimony and for your service to our Nation. I 
congratulate you and wish you well in your respective 
positions. Thank you for all you are doing.
    General--actually Admiral, if I could start with you, since 
we have discussed New START this morning already a bit. I want 
to dive into that just a little more and talk about what 
STRATCOM's view is as the best path for meeting New START 
levels while maintaining a nuclear deterrent and why.
    Admiral Haney. We are, Congressman Langevin, on our journey 
in terms of meeting the requirements of the New START Treaty 
that goes fully in effect on the 5th of February in 2018.
    This involves where we will end up with 1,550 operational 
warheads that are also associated with 700 deployed launchers 
that are spread around the intercontinental ballistic force, 
the sea base, submarines, and the bombers.
    We are working our way through that journey and then there 
is another number, the 800 total launchers, meaning that you 
have about 100 that are non-deployed, meaning that they are not 
operationally with a--in the case of an ICBM or a submarine 
physically with a missile in the tube in that type of a 
configuration. More of a warm status.
    We are working our way through that cycle so that we will 
be there in 2018.
    Mr. Langevin. And the thoughts on the balance in terms of 
the missiles that are warm in the silos? Is that going to come 
at the expense of what is our most survivable nuclear 
deterrent, that is our SLBMs [submarine-launched ballistic 
missiles] in the tubes?
    Admiral Haney. Congressman, the work is ongoing with U.S. 
Strategic Command, Office of the Secretary of Defense. And in 
terms of looking very--in detail with the attributes that each 
of those legs provide as we look at which will be kept in the 
warm status and I think the results of that will be coming out 
soon.
    Mr. Langevin. Okay. Thank you, Admiral.
    General, if I could turn to you, and I thank you both for 
identifying the cyber threat as one of our top concerns. And I 
have been working on this issue for years. When I first did a 
deep dive on this in 2007, I can tell you pretty much nobody 
was talking about it. Now it seems that everyone gets how 
important and challenged we are in securing our Nation's 
cyberspace.
    So General, if I could just start with you, what does the 
cyber threat landscape look like in your AOR [area of 
responsibility]? What trends concern you most? And I will see 
if I have time for a follow-up after that.
    General Scaparrotti. Congressman, thank you. I was remiss 
in not noting cyber as one of the asymmetric threats that North 
Korea is developing. And they are developing a cyber threat, as 
well.
    Theirs is not as advanced as some others, globally 
challenges. But they have demonstrated the ability to do denial 
of service, as well as disruption of web faces, et cetera. They 
had an impact on the South Korean banking and media industry 
here in the spring and summer of 2013, for example.
    And we know that they are working hard to develop a greater 
capability in cyber.
    And then also within our area, as you know, China presents 
a cyber challenge, as well, in the Pacific region.
    Mr. Langevin. And on that point, General, do you assess any 
security risk to U.S. forces from Seoul's interest in China's 
Huawei communications and networking equipment?
    General Scaparrotti. I am sorry, sir, on the last part, 
China's----
    Mr. Langevin. China's Huawei communications and networking 
equipment?
    General Scaparrotti. Sir, I can't comment on that. I don't 
have the knowledge on that particular issue.
    Mr. Langevin. Okay. I would like to circle back with you. 
As you know, the Intelligence Committee on which I sit, as 
well, has done a deep dive on the Huawei issue and it is of 
great concern to us to the point that we have blocked Huawei 
from doing business here in the United States.
    But that is an ongoing and evolving concern that we have. 
So, we should talk more about that.
    General Scaparrotti. Thank you, sir.
    Mr. Langevin. With that, I will have more questions in the 
classified session.
    And I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And thank you both for your service to our country.
    Admiral Haney, is it true that according to the latest New 
START Treaty declaration, we have actually cut our nuclear 
warheads by 103 while Russia has increased its deployed 
warheads?
    Admiral Haney. Congressman, I would put it a different way 
in that we are all working toward our strategic deterrent limit 
numbers as I described here relative to the 1,550 warheads for 
the United States of America, as well as for Russia in this 
arms control agreement.
    Mr. Lamborn. Well, I can't dispute what you are saying. But 
to me, it is a remarkable situation that we are decreasing and 
they are increasing.
    You don't have to comment on that, but let me ask you 
this--what is the ratio of imbalance of nuclear forces not 
covered by the treaty, like tactical weapons?
    Admiral Haney. Congressman Lamborn, as you know, Russia has 
a sizable quantity of tactical nuclear weapons.
    The agreements we have had thus far have been focused on 
the strategic nuclear weapons. And when you look at those 
stockpile reductions, we have come down quite significantly as 
appropriately, in my opinion.
    And at the same time, through agreements ensuring that we 
have strategic stability as part of that process--and the 
verification piece that provides us that transparency; for 
example, 18 inspections on each side is a critical part of that 
agreement.
    Mr. Lamborn. But is the imbalance roughly 10 to 1 when it 
comes to tactical warheads and weapons?
    Admiral Haney. I would rather not put a number to it in 
this open forum, sir.
    Mr. Lamborn. Okay, thank you.
    Admiral Haney, your predecessor testified that B-61 nuclear 
weapons stationed in Europe provide the President with 
important options and therefore have military value.
    Would you agree with that assessment?
    Admiral Haney. I would agree with that assessment.
    Mr. Lamborn. Okay, thank you very much.
    And now, for either one of you, how dangerous are North 
Korea's KN-08 missiles? Are they different from what we have 
seen in the past?
    General Scaparrotti. The KN-08 is their developmental 
intercontinental ballistic missile. They have not tested it. 
They have displayed it.
    We believe that they have the technical capabilities and 
the skill to produce an ICBM. They claim that they have done 
so.
    And so, because of that, I think it is dangerous and we 
have to assume that they can employ one.
    Mr. Lamborn. Well, with that in mind, are we adequately 
prepared to defend against North Korean missiles--either the 
KN-08 we just discussed or the shorter range weapons that could 
hit our forces in the region?
    General Scaparrotti. Congressman, I will take the Korean 
theater portion of that. We and the Republic of Korea forces 
have a missile defense system that is in place which does 
provide the fence for the Korean theater and the forces therein 
and the populace there.
    As noted in my testimony, it is one area, though, that we 
do need to continue to focus on. And it is one of the areas for 
improvement on both the ROK and U.S. side, in terms of the 
alliance. We can be better, is what I am saying.
    Mr. Lamborn. Okay.
    Admiral Haney. Congressman Lamborn, our missile defense 
system which we have developed and continue to work on 
improving is designed specifically for a threat such as from 
North Korea.
    This is an area that we continue to work on investments, 
particularly in our sensing capability, discrimination, and 
working to improve the kill vehicle aspect of that capability 
are our top priorities.
    Mr. Lamborn. And lastly, does the North Korean regime 
continue to put an emphasis on developing weapons of mass 
destruction as well as ballistic missiles?
    General Scaparrotti. Congressman, yes they do. They are 
working on it steadily.
    Mr. Lamborn. Okay, thank you both.
    And Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    General, I would like to address a little bit more about 
the Republic of Korea's military's capabilities.
    You know, I know that historically, DOD [Department of 
Defense] was really looking at varied options to improve their 
readiness and also to look at the transfer of wartime 
operational controls back to the South Koreans--and that has 
been delayed until 2015 for a number of reasons.
    So, I would be really interested in hearing about the 
current status of those efforts and what some of the biggest 
impediments to the transfer might be right now.
    There have also been some reports that have expressed 
concerns about the South Koreans' abilities to assume control--
whether they have demonstrated capabilities in place, or 
especially when they don't have certain capabilities such as 
landing crafts.
    I am just very concerned about the range of security issues 
in the region and would like for you to perhaps comment on the 
current combat deficiencies with the ROK--beyond F-35, which 
you have already mentioned--that may further delay transferring 
operational control.
    And could you also identify capabilities that they should 
be pursuing that they currently don't have or aren't and if 
that is anything that can be addressed with the FMS [Foreign 
Military Sales] program?
    General Scaparrotti. Congresswoman, thank you for the 
question.
    We are presently--and I say we--it is the Minister of 
Defense and the Secretary of Defense; the Department of Defense 
here last October agreed that they would form a working group 
to review the OPCON [operational control] transition of control 
in wartime of the alliance forces; they would review that 
throughout this year with an end date of reporting back at the 
next military committee this coming October.
    That review is underway. And really, what they are looking 
at is, is it appropriate? What is the right timing of the 
transition? It is scheduled for December of 2015 at this point.
    And then also looking at what are the conditions that have 
to be met--because the transfer--Strategic Alliance 2015, as it 
is called--is a conditions-based process. It is not set on a 
date alone; it is on the condition.
    So, those are being reviewed today. What I would say to you 
is that the Republic of Korea leadership that I work with daily 
has stated that they are not prepared to take control of 
alliance forces in crisis at this point, and don't believe they 
will be by 2015.
    Having said that, and to respond to the areas where I 
believe that we need to work--and these are areas that within 
the alliance, we need to work, but also ones that the Republic 
of Korean forces are focused on--is, first, ISR, the 
intelligence, surveillance, and reconnaissance systems that 
enable us as an alliance to provide indicators and warnings and 
to know what happened if there is an instant to determine what 
needs to be done next.
    Secondly, C4I, which is our computers, communications 
systems that allow command and control. An area there that is 
sufficient today; but given technology, can be much better--
internally for each of our forces, but specifically for the 
alliance and something that I think for transition needs to be 
improved.
    The third is the ballistic missile defense system. As an 
alliance, we prefer an interoperable, layered, integrated 
system that works together--it is a much stronger system that 
way. There are things that need to be done in order to attain 
that objective.
    On the part of the Republic of Korea, that is one of their 
central priorities within the Ministry of Defense. And they are 
working what is known as the Korean Air Missile Defense System, 
and they have established a cell on a procedure to get to that 
point.
    And then finally, munitions. Within the alliance, we don't 
have the right stockage of munitions and the numbers that we 
need to sustain us for a crisis of 30 days or more, for 
example. And we are working closely with the Republic of Korea 
to resolve that.
    I would finally close by saying that the ROK Government 
this year has budgeted within their budget against each of 
these areas and they are also focused on the areas that we 
believe as an alliance need to improve as we work toward OPCON 
transition.
    Ms. Duckworth. Thank you. Are their priorities the same as 
yours--you know, the ones that you have addressed?
    You talked about the ISR, C4I, the ballistic missile 
defense, munitions--would you say that there would be 
concurrence on the South Korean defense minister's part, as 
well, or do you think he has slightly different priorities?
    General Scaparrotti. Well, he may have other priorities as 
well, but they agree with these priorities with the alliance. 
They have been agreed upon bilaterally. And as I said in the 
budget for instance, ISR, they recently budgeted to purchase 
Global Hawk, which is very important.
    They also put funds against munitions, et cetera. So we are 
working now on exactly--for instance munitions, which ones 
are--do we agree upon that we need, et cetera.
    Ms. Duckworth. All right. Thank you.
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Gentlemen, thank both of you and those with you. Always 
very grateful to those who wear the uniform. I have 5-year-old 
twins, and I know that they have a much better chance of 
walking in the light of freedom because of the commitment that 
you have shown your entire lives, and I am very grateful to 
you.
    With that, if it is all right General Scaparrotti, I will 
start with you. President Obama recently told leaders of Japan 
and South Korea that he has succeeded in ``changing the game'' 
over North Korea's nuclear weapons program.
    And yet last month, North Korea launched two mid-range 
ballistic missiles, and earlier this week they released a 
statement saying they would not rule out a new form of nuclear 
test for bolstering nuclear deterrence.
    And from your perspective, what is our Defense Department 
doing or able to do to change the game in our favor, and how 
are our missile defenses postured to support and protect our 
allies in the region from potential North Korean missile 
threats?
    General Scaparrotti. Sir, in terms of the Defense 
Department strategy, it is really a whole-of-government 
approach that includes diplomatic, economic information, as 
well as military responses.
    In terms of the military, it is our posture. The exercises 
that we do for instance are a part of this deterrent strategy 
we have in terms of Kim Jong-un's view of his missile and 
nuclear capabilities and what capability he may have and what 
it may cost him. So we look across the whole of government to 
respond to this.
    And actually just as with the occurrences that we have had 
here since the 21st of February and over the last few days, we 
are continually working that and changing our posture in order 
to have influence.
    Mr. Franks. Thank you. Admiral Haney, STRATCOM mission is 
to ``deter and detect strategic attacks and defeat attacks if 
deterrence fails.''
    And I have to say to you, having the privilege of serving 
on the Strategic Forces Committee here, I believe that the 
dollars spent under your command are the most important dollars 
in our entire military because our diplomacy is always seen in 
the shadow of our military capability. And I just can't express 
to you how deeply convinced I am that your leadership and the 
work that you do is vital to this country.
    You have stated that our spending on nuclear forces was 
only 2.5 percent of DOD spending in 2013. And I am not sure 
that upper echelons of leadership are really giving you the 
resources that you need. And I hear now of further reductions 
even beyond the New START Treaty levels. And I have to express 
to you, the low spending and even the further reductions in our 
New START concerns me greatly.
    Does it affect your mission to deter, detect, or defeat 
while potential adversaries around the world are pursuing 
greater capability in light of some of these moves in the 
direction of where it would reduce your overall response or 
throw-weight capability? Tell me, how is that affecting your 
mission?
    Admiral Haney. Congressman, first and foremost, you know, 
the forces that I lead and have at our country's disposal today 
is in fact ensuring we have a credible, secure, and effective 
deterrent capability. And it is run and operated by very 
capable people day in and day out.
    But to your point here, we cannot just assume that that 
will continue without proper investments, modernizations, 
support for our laboratory infrastructure and what have you 
that supports that capability now and into the future. It will 
continue to require investment.
    Mr. Franks. Well, I know--you know, there is no one that 
can tell you about anything about deterrent. You are the--I 
think one of the most well-qualified leaders of this particular 
part of our military that we have ever had.
    But having said that, you know, the deterrent is always in 
the mind of the enemy or the potential enemy. And my concern is 
that when they see us moving toward reduction and lower 
spending, that they may begin to be a little bit more--maybe 
question that deterrent more than they should, especially as we 
get that umbrella broadened out.
    And do you have any thoughts for this committee about what 
our future mindset should be toward the deterrence spending?
    Admiral Haney. Well, I would hope this committee would 
support the modernization programs that support our credible, 
secure, and effective deterrent. And that extends all the way 
from the indications and warning sensors, the command and 
control piece, as well as the modernization of the platforms 
that are required, all the way to the weapon, the warhead 
itself. And we have to stay on course in that regard.
    As mentioned earlier, these modernization programs such 
as--from the weapons side, the warhead such as the B-61 
program, very important to our Nation going forward. And in its 
future, the replacement for the air-launched cruise missile 
will be just as critical.
    Similarly, as we look at platforms, the Ohio replacement 
platform, the long-range strike bomber, support for those 
programs are critical to the future of our deterrent. As we do 
reduce in numbers to the New START Treaty, you should know that 
those numbers support the warfighting capability we need to 
have, the deterrence and assurance capability we need to have.
    And that has been looked at very, very hard. And having 
seen that process before when I was deputy commander and in 
other jobs in the Pentagon to seeing where we are now, we are 
on the right course. But that really makes every leg of the 
triad very important for the future.
    Mr. Franks. Well, thank you, Admiral. Thank you both for 
your service.
    Mr. Scott [presiding]. Gentleman's time has expired. Mr. 
Barber.
    Mr. Barber. Thank you, Mr. Chairman. And thank you both, 
gentlemen, for being with us this morning. And as my colleagues 
have said, thank you for your service and your leadership to 
our men and women in uniform.
    I want to talk first of all with you, Admiral Haney, about 
cyber threats in the United States. I think Secretary Hagel 
said it well, that this is in the future in many ways of our 
defense posture and we must make sure it is robust.
    I believe we have to expand our cyber warfare capabilities 
to confront what we know are the evolving and ever-growing 
cyber threats against the United States. And as you know, 
Admiral, innovations in technology are moving very rapidly. And 
there is convergence between various disciplines with network 
systems and tactics.
    And this convergence of technology I believe calls for a 
diverse cyber workforce with capabilities from various 
disciplines. As you may know, Admiral, I have an outstanding 
garrison, Fort Huachuca, in my district with its electronic 
proving grounds, which is I believe an important partner in 
this evolving mission of cybersecurity.
    Not only does the installation have one of the most 
pristine environments in the world for C5ISR [command, control, 
communications, computers, combat systems, intelligence, 
surveillance, and reconnaissance] testing in the United States, 
but also has a training facility right at its back door. 
Admiral, could you comment on this?
    As cyber warfare increasingly becomes a high priority in 
our national defense strategy, how do you see STRATCOM or more 
specifically USCYBERCOM [U.S. Cyber Command] diversifying its 
cyber capabilities with existing infrastructures like Fort 
Huachuca and the electronic proving grounds?
    And do you see the Nation's ranges playing an increasingly 
important role in the testing of future cyber and electronic 
magnet--electromagnetic technology? Please respond, Admiral.
    Admiral Haney. Congressman Barber, I thank you for that 
question. Your concerns for cybersecurity and our cyber 
capabilities are spot on.
    This is an area that is very important to me, and as I get 
to have this focus in my command as a priority of building 
cyberspace capability and capacity in working with our services 
and the joint staff and of course with U.S. Cyber Command in 
order to look at the threats of the day and the threats of the 
future and ensuring that we man, train, and equip to be able to 
address those threats, and also to integrate that capability 
into our tool bag for the future.
    So there is a lot of work going on. Your discussion of 
ranges is also important. And that interface between the 
electronic warfare environment and the cyber environment is one 
that we are continually working on now and into the future.
    Mr. Barber. Well, I definitely commend the installation 
at--in Cochise County in my district, Fort Huachuca, and the 
range that as I mentioned is right there, the Goldwater Range, 
and great capabilities.
    Let me have a follow-up question with you on this, Admiral, 
too. And that has to do with how the fiscal restraints and the 
budget cuts are impacting on this important asset that we must 
have going forward.
    How does the Department of Defense diversify and build a 
cyber workforce during a time of pretty significant personnel 
reductions and budget constraints?
    Admiral Haney. Congressman Barber, that work is under way 
and ongoing, and I am very pleased that the commitment from the 
services and through the joint force apparatus--Office of 
Secretary of Defense support. In terms of working to build up 
that capability, even in this environment of sequestration, we 
have been supported to build up a number of teams associated 
with our cyber workforce. From a protection standpoint, 
national mission teams. And they are working hand in hand at 
U.S. Cyber Command--they are--day in and day out, and improving 
that capability.
    I think as we go forward, we will still need some work 
outside of what was already discussed in terms of policies, 
authorities, and those to support this workforce that we 
continue to train and develop and grow.
    Mr. Barber. Let me turn--thank you, Admiral. I will turn to 
General. This has to do with South Korea and the protection of 
our ally there, the treaty that we have.
    The A-10s, as you know, have played an important role in 
providing close air support, should we have a conflict with 
North Korea. And you never know--tomorrow it could happen. I 
mean, I can ask your comment--for you to comment on the A-10's 
presence, its importance, and about what might happen if we no 
longer have it in the air and flying in protection of our 
troops.
    General Scaparrotti. Thank you, sir.
    As you know, the A-10 is a unique platform that provides 
exceptional close air support to our troops. I'm an 
infantryman; it has been employed on my behalf in combat. And 
the pilots that fly them--it is an exceptional platform.
    On the peninsula, I think it is an important part of our 
defense there in the sense that you have the kind of terrain 
that an airplane like that can be helpful. However, I also know 
in this case, the Air Force's difficulties with the physical 
constraints that they have, and an aging platform, that they 
have got to make some tough decisions. And I believe that if 
the A-10 does not remain in the inventory, that we can be 
provided support from F-15, F-16, and the other platforms, as 
we have done in Afghanistan successfully.
    So, within the peninsula, my concern is, is that I have an 
aircraft that will replace that A-10 if, in fact, it leaves the 
inventory.
    Mr. Barber. Thank you, General.
    I yield back.
    Mr. Scott. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. And, General 
Scaparrotti, Admiral Haney, thank you so much for joining us 
today. We appreciate your service to our Nation.
    General Scaparrotti, in August of 2013, the Deputy 
Secretary of Defense denied the Army's request to increase the 
overseas housing allowance in support of the Humphreys Housing 
Opportunity program, stating that there were some issues there. 
And what they did was to direct the Army to look at 
alternatives to that housing opportunity program there that 
would meet the readiness requirement set forth by U.S. Forces 
Korea's commander.
    Let me ask this. Do you believe that the readiness 
requirements for Camp Humphreys housing is still valid? Are you 
reevaluating those requirements? And what are you doing 
currently in working with the Army to address the projected 
housing deficits there at Camp Humphreys?
    General Scaparrotti. Sir, thank you.
    As I came into command, one of my first priorities was to 
really review very closely our reposture of our forces, and in 
particular, our ability to take care of our forces in barracks 
and families in quarters. And I have done that in the time that 
I have been in command. And, actually, I have established my 
requirement at 40 percent of our command sponsorship program 
families, which is also General Thurman's prior requirement. I 
believe that is accurate.
    And I have--the Army is aware of that requirement, as well. 
Now, I have worked with the Army since I have been in command 
on this issue. In fact, spoke to Ms. Hammack this week. And 
then about 10 days ago, the Army held a conference in Korea, 
targeted at determining the market off post, and the 
availability off post--the availability of building.
    So, having said that, it is an Army issue. As a commander, 
I do need a solution. As you know, the majority of our forces 
are moving in 2016. I am really inside of the window for being 
able to provide for the families that will be moving. And so I 
look to the Army to find a solution, and it will probably be a 
combination of both on- and off-post capability in order to 
meet our requirements.
    Mr. Wittman. Very good.
    If you would give me your assessment of U.S. Forces Korea 
readiness, and how you look at the other challenges that are 
out there that may have an impact on your state of readiness, 
and that is, the effect of other COCOMs [combatant commands] 
and the other service branches as far as the current readiness 
states.
    And what are your thoughts and concerns about PACOM's pre-
positioned stocks, including operational stocks? And is there a 
challenge there with those stocks being deficient? And if so, 
what would you propose be done in relation to your efforts with 
PACOM to address that?
    General Scaparrotti. Congressman, we are in close working 
relationship with PACOM. We have an excellent relationship in 
terms of our staffs. I do have concerns about pre-positioned 
stocks, primarily with the fiscal constraints, and perhaps some 
decisions that Army may make with respect to the available 
stocks for us, which we rely upon if we go into crisis.
    I also have concerns about munitions. Having the stockage 
that I need. I am short right now in some specific categories--
precision munitions and ballistic missile defense, in 
particular. And also, the location of those so that they match 
my deployment schedule in the places that I need them as I flow 
forces.
    Mr. Wittman. Give me your perspective on the current state 
of readiness there. If you would put that in perspective. 
Obviously, we talked about the operational and pre-positioned 
stocks, but give me your perspective on where you are from a 
readiness standpoint.
    General Scaparrotti. I think today, Congressman, I am in 
good shape in terms of readiness for deterrence, and for 
actions in armistice or provocation. My concern with readiness 
has to do with development where provocation escalates to a 
crisis. And at that point in time, I will immediately need 
follow-on forces.
    The initial forces from PACOM, I am confident, given my 
discussions with the PACOM commander and his subordinate 
commanders that they are focused on my immediate needs, and 
they track that daily. But as we get into a greater conflict, 
and we begin to flow forces from all the services, you know 
today that they are at a reduced readiness rate. And so, I am 
concerned that they would be--they would come in a ready state 
that I need them for what will be a high-intensity conflict. 
Not like Afghanistan or Iraq, but a high-intensity conflict. 
And also, that they can be delivered by TRANSCOM 
[Transportation Command] in the timeline that I need them. And 
I believe today that TRANSCOM could not meet that schedule, 
given the fiscal constraints that they have.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Scott. Thank you.
    General, you spoke earlier to the ISR on the battle 
management platforms and the importance of them. The JSTARS 
[Joint Surveillance Target Attack Radar System] fly out of 
Robins Air Force Base that I represent. And there is a proposal 
currently to recapitalize that fleet. I have a tremendous 
amount of respect for General Welsh. Agree with him that we 
need to move to that next generation platform.
    In moving to that platform, we are going to be pulling down 
some of the current aircraft that are flying and providing that 
intel and that battle management platform.
    My question for both of you is, as we draw down those units 
when they go in for depot maintenance, to recapitalize the 
fleet, my concern is that it leaves us with a gap in that ISR 
and battle management platform. Could you discuss the 
importance of the JSTARS, the recapitalization, and any 
potential gap that may be there as we recapitalize that fleet?
    General Scaparrotti. In my case, sir, I--the environment in 
Korea--the JSTARS provides me some critical intelligence in 
terms of change management, et cetera. And I would prefer not 
to go into too much more detail here, but it is very important 
to us. And when that transition takes place, for me, it is 
important that it is done so that I don't have a loss in 
capability as we transition to, and make available, a new 
airframe that will provide the same intelligence capabilities.
    Mr. Scott. I think that--obviously, our goal is to get you 
more intelligence from the JSTAR unit. But we will speak 
further about it when we go into the classified meeting. But 
thank you for your comments.
    And, Admiral, do you have anything to add to the JSTARS?
    Admiral Haney. Congressman, I would say at large, in terms 
of intelligence, surveillance, and reconnaissance and our 
assets, they are at high demand and in total.
    And the business of being able to have that unblinking eye 
is a critical mission area that we are all--work together at.
    So, when we get to this point here of JSTARS management, 
that is going to require careful management to ensure that we 
don't lose capability where we need to have it.
    Mr. Scott. Thank you.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I want to thank both of our--General and Admiral, for 
your time here today and briefing us.
    I had an opportunity to go to South Korea back in 2006 
before I got involved in this crazy place. I went there to 
visit my son, who was up at Camp Casey, Camp Humphrey--two 
garden spots, I would say.
    But I was always concerned about our ability to defend 
ourselves and the South Korean Peninsula.
    And there have been a number of changes in force--he was 
heavy armor, then went to Bradleys.
    So, I hear some reluctance in your statements, General, in 
regards to pre-positioning of our assets. You know, everything 
that I have heard and read about North Korea--it doesn't bode 
real well for us in the short-term for those forces that we 
have there.
    Can you give me assurances as a father of three soldiers 
that currently serve--two Active Duty, one National Guard--that 
we are capable of defending not only South Korea, but our own 
men and women that are stationed there?
    General Scaparrotti. Yes, Congressman, I can. The Republic 
of Korean forces, which have the--provide the predominance of 
the ground force today and the defense along the DMZ--which has 
changed, you know, since 2006. There has been a transition 
there within the alliance.
    They are a capable, modern force. Their officerships are 
well-trained and they are getting stronger every day.
    Our posture there, I think, is sufficient now. To your 
point, in terms daily, I believe, yes--we can defend the 
peninsula.
    But what I would say is, is that this is a different 
environment than we have--you know, it is a different--the 
nature of this conflict will be different.
    And it will be high intensity; there will be higher 
casualties than we have seen in the recent conflicts that we 
have been in because of the, one, the capability of both sides; 
but also, the number of forces that are involved here and the 
limited warning.
    So, there is no doubt that we can defend the peninsula. But 
this will be a high-intensity, tough conflict, and it will have 
potentially some high casualties, as well--that is, if we go to 
a full crisis.
    In short, in terms of provocation, I assure you that we can 
deal with provocation.
    Mr. Nugent. And I know from the intel side of it, very 
difficult to judge where Kim Jong-un--his regime is at any 
given time, particularly he obviously has no problem in taking 
out those that he feels are a threat to him in any way at all.
    But changing just a little bit--as it relates to the 
National Guard and the Reserve forces, there is a lot of 
discussion about, A, keeping them operational. What, if any, 
mission do you see with the National Guard or Reserve forces to 
supplement the forces--Active Duty forces that are currently in 
Republic of South Korea?
    General Scaparrotti. Well, sir, in terms of our forces, the 
Guard is--you know, over the years, particularly through the 
conflict in the last decade, they have served side by side with 
us. We have been a total force.
    As a commander in Afghanistan, I averaged between 11 and 14 
percent Guard and Reserve with every unit that I commanded in 
Afghanistan or Iraq.
    And in terms of the peninsula, I think they are an integral 
part of what we do day to day in armistice and as well as if we 
go to conflict.
    Mr. Nugent. Are you planning National Guard rotations or 
Reserve rotations through the peninsula?
    General Scaparrotti. Sir, I don't necessarily specify the 
type of element. I have a requirement as a commander----
    Mr. Nugent. Okay.
    General Scaparrotti. And then it is the forces' 
determination as to who they provide. My requirement is they 
provide a force that is capable to do the mission and is ready.
    Mr. Nugent. Okay.
    Mr. Chairman, I yield back. Thank you very much.
    Mr. Scott. Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Admiral Haney, our QDR states that, quote: ``We will pursue 
further negotiated reductions with Russia''--talking about 
nuclear arms reductions.
    Given Russia's annexation of Crimea and the mass amount of 
troops that they are putting on the border of Ukraine, do you 
support negotiated reductions with Russia?
    Admiral Haney. Congressman, as I have stated both in a 
variety of statements publicly, any further reductions with 
Russia requires that it is done in a verifiable manner. It also 
has to be negotiated--not unilateral; bilaterally. And it has 
to be in full context of their world events, as well as in 
context of all of their capability.
    Mr. Bridenstine. So, if the QDR, for example, was written 
prior to the invasion of Crimea, then that might change the 
calculation of whether or not we need to reduce nuclear weapons 
with Russia?
    Admiral Haney. It has the possibility.
    Mr. Bridenstine. It is public knowledge that the State 
Department has confronted Russia about its violation of the 
Intermediate Nuclear Forces Treaty. And media reports indicate 
that the U.S. has known about these likely violations for 
years.
    Did this factor into these statements in the QDR about new 
negotiations for treaties with Russia that you know of?
    Admiral Haney. The comment in the QDR associated with 
negotiations with Russia has been a comment that has been 
reinforced, both from Nuclear Posture Review 2010, the 
President's Berlin speech.
    This has been a continual goal--the goal of continuing to 
reduce nuclear weapons in the world in general. But along with 
that goal has been a statement that as long as other nations 
have that capability, we will have a safe, secure, and 
effective capability, as well.
    Mr. Bridenstine. Do you believe Russia should be in 
compliance with its existing nuclear arms control treaties 
before we negotiate new ones?
    Admiral Haney. I believe that treaties are an agreement 
that has to be dealt with seriously and that--no different than 
our execution of New START Treaty today, that we are able to 
carry out what we signed up to do.
    Mr. Bridenstine. So, if they would be in violation of old 
treaties, maybe we shouldn't enter into new treaties?
    Admiral Haney. I would rather not talk about a hypothetical 
case. I would rather this issue, which I think is being taken 
seriously--it is being looked at by our interagency, 
particularly State Department--and I think that piece needs to 
come to conclusion as we look forward at further treaties.
    Mr. Bridenstine. Thank you very much, Admiral.
    I yield back.
    Mr. Scott. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Gentlemen, what type of strategic adjustments have you had 
to make in light of what Mr. Snowden has taken from us as far 
as intelligence and how we go about business? How do you 
prepare for somewhat the unknown?
    I guess we do have some idea of what was taken and what 
information may be shared. But how do you prepare for the 
downfall of that?
    Admiral Haney. Congressman, I think that first and 
foremost, the approach has been to take a hard look at what is 
all the material that has been potentially leaked--classified 
material leaked by Mr. Snowden.
    And then looking at that and adjusting based on those--on 
the categories and the specificity--the specifics of the 
associated material. I couldn't go into more detail than that 
in this open forum.
    Dr. Wenstrup. But that process is taking place and 
analyzing what we may need to change in order to keep up with 
what they may now know?
    Admiral Haney. It is a process that is ongoing. It has 
specific attention, I think, of components to our Department of 
Defense and country at large, and that this is an ongoing 
assessment and evaluation.
    Dr. Wenstrup. Yes, I imagine it is pretty extensive. 
Because so much material was taken to figure out what we know 
they know. And then how do we adjust? And so, I appreciate your 
efforts in that regard. I am encouraged to know that it is 
ongoing. And I want to thank you both for your service.
    And, General, I don't know if you have anything to add to 
that.
    General Scaparrotti. Only that just 2 days ago, I sat down 
with individuals who are analyzing all of this data to 
specifically come back for another time with me in terms of how 
it impacts my forces in Korea and what we do. So, they are 
constantly working this issue, and we are continuing to 
exchange as time goes on to determine what changes we need to 
make, what impacts it will have.
    Dr. Wenstrup. Thank you both very much. Appreciate it.
    I yield back.
    Mr. Scott. Thank you.
    Gentlemen, that concludes the meeting in this room. We will 
adjourn to 2216 at this time. If you need a little break--say 
12:00 p.m., does that work for you?
    [Whereupon, at 11:51 a.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 2, 2014

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 2, 2014

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 2, 2014

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. There are various efforts in the Department, namely 
Air Force, Army, and DARPA, to provide rapid low cost launch solutions. 
How would this type of launch capability be a benefit to the 
warfighter, and in light of China's advances in counterspace, how 
important is it that we prioritize these efforts?
    Admiral Haney. Rapid low cost launch solutions could enable the 
warfighter to add, maintain or replenish capability should the need 
arise. Rapid launch may also help supply short-term niche space-based 
products and services in support of specific operational needs that may 
be beyond the scope or timeline of on-going programs. The current level 
of development priority for these capabilities is appropriate. While 
rapid launch will likely be a contributor in supporting response 
options to threats to our space systems, it is premature to determine 
if this path will provide our sole or most significant contribution.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. What would it take to fully implement the nuclear 
deterrent modernization plan laid out in FY14? Please provide any 
available analysis or charts showing what would be required to fully 
execute this plan.
    Admiral Haney. The FY2015 Section 1043 Report (10 USC, Sec 495) is 
in final development for submission to the President and forwarding to 
Congress. The report outlines the plans and resource requirements to 
ensure the U.S. continues to meet its strategic deterrence objectives 
and extended deterrence commitments to our allies and partners. These 
resource requirements are reflected in the President's FY2015 Budget 
submission. The total estimated budget requirement for Fiscal Years 
2015 through 2019 is nearly $125B--$45.6B for the DOE, NNSA; $61.2B for 
the DOD nuclear weapons delivery systems capability sustainment; and 
$17.9B for the DOD nuclear command and control capability sustainment.
    Mr. Cooper. The Defense Science Board in a recent report, 
``Assessment of Nuclear Monitoring and Verification Technologies,'' 
concluded that monitoring for nuclear proliferation should be a top 
national security objective, but one for which ``the nation is not yet 
organized or fully equipped to address.'' Do you agree? Why is 
verification important for strategic stability?
    Admiral Haney. I agree monitoring for nuclear proliferation should 
be a top national priority. Monitoring and verification are important 
components in our strategy to reduce nuclear threats to United States' 
vital interests. As the report points out, today's complex security 
environment presents new and evolving challenges in the early 
identification of clandestine nuclear weapon programs. New technologies 
and approaches are required as part of a comprehensive strategy to 
mitigate these threats. Many of these same technologies are also 
necessary to enhance verification of compliance of current and future 
arms control agreements that seek to reduce nuclear stockpiles as well 
as delivery systems.
    Mr. Cooper. Why is Russia concerned about U.S. missile defense and 
conventional prompt global strike efforts? How is this affecting their 
nuclear deterrent force posture and doctrine?
    Admiral Haney. Despite the fact the U.S. continues to assure Russia 
that European BMD is not sized, positioned, nor capable of offsetting 
Russian ICBMs, the Russians continue to publicly oppose U.S. missile 
defense in Europe, stating they believe these interceptors to be a 
threat to their nuclear strategic deterrent. Publicly, Russia has 
expressed concerns about the survivability of its future nuclear 
deterrent in the face of U.S. and allied ballistic missile defenses and 
conventional strategic arms. Deputy Defense Minister Anatoly Antonov 
may have best summarized these Russian concerns when he spoke at an 
October 2007 NATO-Russia Council Meeting:

        ``. . . Global missile defense cannot be discussed apart from 
        strategic offensive weapons. The undeniable link between U.S. 
        missile defense and its strategic offensive weapons is 
        axiomatic. Taken together they become a strategic complex 
        capable of delivering a ``disarming first strike'' . . . 
        Furthermore, we see a direct link between U.S. plans for global 
        missile defense and the prompt global strike concept which 
        means the ability to strike any point on the globe within an 
        hour of the relevant decision. This concept, when combined with 
        global missile defense, becomes a means for world domination, 
        politically and strategically. This is a rather serious factor 
        which undermines the principles of mutual deterrence and mutual 
        security and erodes the architecture of strategic stability . . 
        .''

    From our perspective, their concern is unwarranted as the planned 
number of interceptors is insignificant compared to the total number of 
ballistic missiles they have available.
    The 2010 Ballistic Missile Defense Review states that, ``While the 
GMD system would be employed to defend the United States against 
limited missile launches from any source, it does not have the capacity 
to cope with large scale Russian or Chinese missile attacks, and is not 
intended to affect the strategic balance with those countries.'' We 
continue to follow this policy in our acquisition and procurement 
decisions.
    We continue to monitor Russia's upward trajectory to modernize its 
nuclear triad by 2021 that interestingly includes its own precision-
guided weapons development program as well as the fielding of missile 
defense systems. The last two Russian strategic nuclear forces 
exercises have included media coverage of precision guided cruise 
missile strikes as well as launches of anti-ballistic missiles in 
response to an incoming ICBM strike. Russia's nuclear forces are 
undergoing a substantial modernization in the face of this new 
generation of missile defense capabilities. During the most recent 
Russian nuclear forces exercise (8 May 2014), Russian Defense Minister 
Shoygu informed President Putin that new ICBMs and SLBMs were entering 
the active force in large numbers. Shoygu also noted that the new Yars 
Intercontinental Ballistic Missile and the Bulava Sea Launched 
Ballistic Missile systems that were being put in service contained, 
among other improvements, enhanced capabilities to overcome missile-
defense systems.
    Mr. Cooper. What is STRATCOM's advice on avoiding an arms race with 
Russia? What is the value of verifiable nuclear weapons reductions?
    Admiral Haney. An arms race is not in our mutual interests. 
Therefore, as outlined in the Nuclear Posture Review, the U.S. should 
continue talks and cooperation with Russia on strategic stability 
issues to enhance confidence, improve transparency, and reduce 
mistrust. Verifiable strategic nuclear arms reductions under the New 
START Treaty support these goals reducing the potential for 
misperception that could lead to unhealthy nuclear competition.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. The United States Government signed agreements with 
the Republic of Korea to relocate United States military forces from 
Seoul and other bases to Camp Humphreys. While the majority of the 
relocation costs are being paid by the Republic of Korea, the 
Department of the Army is solely responsible for ensuring that adequate 
family housing meeting applicable U.S. standards is available, both on-
post and off-post. I am concerned about the impact that a lack of 
adequate housing may have on the relocation effort.
    A. Can you please briefly provide an update on the status of the 
relocation?
    B. In addition, can you please provide an update on your 
requirement regarding the percentage and number of military families 
that need to be housed on Camp Humphreys and a discussion for when you 
need to have family housing available for the relocation to stay on 
schedule?
    C. Do you see any viable short-term solutions to any assessed lack 
of adequate housing?
    D. Can you elaborate on the anti-terrorism and force protection 
measures that will be implemented to ensure the safety of the large 
number of military members and their families stationed in Korea?
    General Scaparrotti. A: The Yongsan Relocation Plan and Land 
Partnership Plan relocation to U.S. Army Garrison (USAG) Humphreys 
remain on schedule to meet U.S. Forces Korea (USFK) objectives. B: USFK 
requires an additional 425 family housing units by mid-2016 for 40% of 
the command sponsored families at USAG Humphreys. C: The Department of 
the Army is working to find housing solutions to meet our operational 
requirements in Korea. D: Currently, the Defense Intelligence Agency 
(DIA) terrorism threat level in the Republic of Korea (ROK) is 
``Moderate,'' and the overall criminal threat within the ROK is 
``Low.'' USFK military housing offices work closely with local realtors 
to provide safe, high quality housing for military members. Although 
the Unified Facilities Criteria anti-terrorism standards do not apply 
to private off-post housing (in Korea or the United States), our 
housing offices provide information sheets on features to look for to 
enhance force protection when selecting a rental unit.
    Additionally, ROK government agencies have very effective 
surveillance and counter-intelligence systems to identify individuals 
with possible ties to terrorist organizations or activities and swiftly 
take action to prevent incidents. The Command works closely with these 
ROK agencies to identify and mitigate any potential threats against 
USFK installations and personnel.

                                  [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
